            U.S. DEPARTMENT OF THE INTERIOR
           OFFICE OF INSPEC
                          CTTOR GENERAL




                                  Audiit of FY
                                             Y2006 and
                                                     a
                                  FY20007 Deepartment
                                  of Deefense Purchaases
                                   Madde Thrrough th he
                                   Dep partmeent of th
                                                     he
                                         Interrior




Report No. Y-IIN-MOA
                   A-0001-22007          Febrruary 20008
EXECUTIVE SUMMARY
This report presents the results of the second in a series of required audits of DOD purchases
made by DOI. During this second audit, the Office of Inspector General (OIG) revisited the
                                issues identified in our earlier audit of SWB and GovWorks.
   DOI Interagency                DOD and DOI performed both audits jointly.
    Contracting
    Two DOI fee-for-                                          First Audit
    service organizations,
    GovWorks and SWB,             During our first audit1, we found that DOI did not always follow
    provide interagency           appropriation and procurement laws, regulations, or rules.
    contracting services to       Specifically, we noted deficiencies in:
    DOD and other federal
    agencies.                         ¾   Funds Management
                                      ¾   Contract Administration
    The DOI National                  ¾   Stewardship
    Business Center                   ¾   Management Oversight
    (NBC) operates both.
    GovWorks is a                                            Second Audit
    franchise fund, and
    SWB functions as part         The objective of this audit was to determine whether the
    of a working capital          purchases SWB and GovWorks made on behalf of DOD
    fund.                         conformed to applicable laws and regulations. We examined
                                  specificity of DOD procurement requests, compliance with
    DOD is the largest
                                  defense procurement requirements on the part of DOI, and use
    customer for both
                                  and tracking of DOD funds. See Appendix 1, Objective, Scope,
    organizations. In
                                  and Methodology.
    FY2006, DOI
    procurement
                                  During this second joint audit, we examined 40 new contracting
    obligations on behalf
                                  actions, 20 at SWB and 20 at GovWorks. We noted
    of DOD totaled
                                  improvements in some areas, but continued to find instances in
    approximately $1.46
                                  which funds were spent far beyond their periods of availability.
    billion or 65 percent of
                                  Overall, we found 17 instances of improper use of funds, as well
    total DOI interagency
                                  as other types of deficiencies, such as contract administration
    activity.
                                 issues and management oversight weaknesses.

We break down the problems we found by organization and discuss them in detail in the “Results
of Audit” section. Based on our findings, we provide three recommendations designed to resolve
violations of law, ensure that DOI returns all expired and advanced funds to the appropriate
agency, or to improve SWB and/or GovWorks operations and performance.

DOD will issue its report on this audit separately.


1
DOI OIG Audit Report No. X-IN-MOA-0018-2005, titled “FY05 Department of the Interior Purchases Made on
Behalf of the Department of Defense, conducted from August 2005 to October 2006.
RESULTS OF AUDIT
When acquiring products and services for DOD, DOI sometimes failed to follow appropriation
and procurement laws, regulations, and rules. Although the OIG found that SWB performance
has improved since our first audit, DOI continues to leave DOD vulnerable to fraud, waste, and
mismanagement. Further, DOI is in danger of losing acquisition center business and the public
trust.

We examined 20 GovWorks and 20 SWB contracting actions.
We found 17 instances in which GovWorks and SWB used               Improper Use of
funds past their periods of availability (Bona Fide Need Rule)     Funds
or for other than their intended purpose (Purpose Statute).        In our first audit, we
Other types of deficiencies, such as poor contract                 identified GovWorks’ use
administration, were identified in 9 of the 40 contract actions.   of expired funds as a basis
                                                                   for potential violation of the
                                                                   Antideficiency Act. The
       GOVWORKS                                                    Comptroller General of the
                                                                   United States has reviewed
                                                                   this use of expired funds
       Of the 20 contracting actions we examined at                and found no potential
       GovWorks, 11 were product purchases and 9 were              ADA violations (CompGen
       service purchases (several actions reflect multiple types   Decision B-308944)
       of deficiencies). We found:                                 applicable to GovWorks.

                                                                   In our second audit,
           ¾     funds used that had expired (12);                 however, we found that
                                                                   both GovWorks and SWB
           ¾     the wrong type of funds used (3);                 improperly used funds in
                                                                   violation of the Bona Fide
           ¾     contracting actions completed without             Needs Rule and/or the
                                                                   Purpose Statute.
                 required legal reviews (6); and
                                                                   The Bona Fide Need Rule
           ¾     contract file deficiencies (5), such as           authorizes use of funds only
                 inadequate contracting file documentation for     for expenses that are
                 price reasonableness, independent U.S.            properly incurred during
                                                                   the period the funds are
                 Government cost estimates, and technical          available.
                 reviews.
                                                                   The Purpose Statute
       Other issues noted during our audit included:               allows agencies to use
                                                                   funds only for their
                                                                   intended purpose.
           ¾     pre-award billings for entire contracts;

           ¾     lack of good stewardship of federal resources;
                 and

           ¾     inadequate management oversight.




                                                 2
        Improper Use of Funds: In 12 of the 20 contracting actions reviewed, we found that
        GovWorks committed funding violations. Examples include accepting expired funds (1);
        taking Military Interdepartmental Purchase Requests (MIPRs) that lacked enough detail
        to establish a bona fide need (11); failing to comply with DOD policies and regulations
        (12); and using the wrong type of funds to procure certain services (3). Several of these
        actions represent more than one type of deficiency (see the chart on the following page).

        In terms of bona fide need, federal funds cannot usually be used for needs that arise
        outside the fiscal period of their authorization. In other words, agencies may not use
        FY2006 monies in FY2007 for FY2007 needs. Further, the Comptroller General has
        ruled that funds conveyed by insufficiently detailed MIPRs cannot be committed.
        Therefore, MIPRs should contain enough detail so that the contracting organization can
        obligate funds.

        Finally, DOD issued policy guidance on October 16, 2006, that requires award of all
        contracts and receipt of all commercial products prior to the expiration of the funds used
        to procure those products or services.2 Therefore, if a commercial product is ordered
        with FY2006 money, it must be received on or before September 30, 2006.

        Specific examples of improper use of funds include:


                             DOI Contract 66592: GovWorks accepted funds from the
            Expired          Information Technology (IT) Systems Project Office in November
             Funds           2006 that had expired on September 30, 2006. On December 21,
            Accepted         2006, GovWorks awarded a contract using over $1 million of these
                             expired funds.



                             DOI Contract 66775: GovWorks accepted a MIPR from the Naval
                             Facilities Expeditionary Logistics Center on September 22, 2006. The
             MIPR
             Lacked          MIPR did not contain enough detail to create a valid obligation. The
             Detail          funds expired on September 30, 2006. On October 24, 2006, nearly
                             1 month after the funds expired, the Navy provided the details needed
                             to award the contract. DOI should have deobligated and returned the
                             funds to DOD. Instead, DOI awarded a contract on November 27,
                             2006, using over $3.5 million in expired funds.




2
U.S. Department of Defense, Office of the Comptroller, “Non-Economy Act Orders” policy memorandum dated
October 16, 2006.

                                                    3
                            DOI Contract 67063: A GovWorks contracting officer awarded this
             DOD            contract totaling more than $1 million to purchase IT hardware,
             Policy         software, and consumables for the U.S. Marine Corps on January 17,
              Not           2007. The FY2006 Marine Corps Operations and Maintenance
            Followed        (O&M) funds used expired on September 30, 2006. The equipment
                            consisted of commercial items, and we found nothing to warrant a 3.5
                            month delay.


                            DOI Contract 67177: GovWorks awarded this contract totaling
                            $54,981 for the purchase of a warranty maintenance contract for
            Purpose         handheld mobile computers. It used funds designated as “Other
            Statute         Procurement” that have a 3-year availability. This purchase should
            Violated        have been made using O&M funds that have a 1-year availability.



        GovWorks has policies in place that should prevent these types of problems from
        occurring. The policies are intended to govern the review and acceptance of client
        funding documents, including ensuring funds are used within their periods of availability,
        determining specificity, and guaranteeing proper funds are used.
        Based on our review of the contract files, we determined that these policies were
        inconsistently followed. We summarize the deficiencies in the table below (see
        Appendix 3 for additional information pertaining to each contract). Multiple violations
        on the same MIPR are counted only once.

                                     GovWorks Violations by Type
                                    MIPR          Funds Accepted      Purpose      Violated DOD
 Contract           MIPR
                                    Lacked        After Period of     Statute       Policy dated
 Number            Number
                                    Detail          Availability     Violations   October 16, 2006
66459        N6260406MP001GV          9                                                  9
66592        MIPR6MWCD3YG61                             9                                9
66602        N6258306MPNF175           9                                                 9
             N6258306MPNF175           9                                                 9
66624
             N6258306MPNF176           9                                                 9
             F2DCCW5306G001                                              9
66672
             F2DCCW6284G001                                              9
66708        V4054062280312            9                                                 9
             RAWMEP06M00082            9                                                 9
66735
             RAWMEP06M00083            9                                                 9
66761        N6258306MPNF176           9                                                 9
66775        N6258306MPNF175           9                                                 9
66810        MIPR6LDLIBA076            9                                                 9
67063        M0008006RQDD036           9                                                 9
67177        F4FFBU5265G001                                              9


                                                4
When we raised these issues with GovWorks personnel, they stated that they relied on
DOD to send only valid requests. However, DOD components 1) continue to send funds
to GovWorks at or near the end of their periods of availability and 2) sometimes provide
only vague descriptions of the products or services they request. These vague
descriptions are not sufficient to demonstrate a bona fide need in the fiscal period for
which the funds were appropriated. GovWorks should always rigorously examine DOD
requests to ensure that funds have not expired, as well as comply with the Bona Fide
Need Rule and the Purpose Statute.

Legal Reviews: We found that GovWorks is still not ensuring that adequate legal
reviews are being performed and documented. DOI policy requires that all proposed
solicitations for noncommercial items in excess of $500,000 and for commercial items in
excess of $2 million receive a legal review by the Office of the Solicitor (SOL). A legal
review of each negotiated contract acquisition in excess of $500,000 is also required prior
to award.

Of the 20 contract actions we reviewed at GovWorks, 7 required a legal review. In six
cases, we found that SOL had not performed legal reviews prior to contract award. We
noted this issue during our first audit and still believe it would be in DOI’s best interest to
ensure that SOL perform adequate legal reviews on all contract actions that require them.

Contract Administration: We found that GovWorks is still not adequately
documenting price reasonableness determinations, independent U.S. Government cost
estimates, or technical evaluations. FAR § 15.406 requires contracting officers to
adequately document and support contracting decisions and awards.

Of the 20 contracting actions we reviewed, we found 5 files that contained inadequate
documentation. We note some improvement in this area, since we found this same
deficiency in 11 of 29 contracting actions reviewed during our first audit. We include in
Appendices 2 and 3 summary descriptions of the contracting actions that we reviewed as
part of this audit and identify the problems for each.

Pre-award Billings: Between March 1 and April 13, 2007, GovWorks — prior to
contract award — billed against 230 MIPRs totaling $127.4 million in DOD funds. On
March 1, 2007, DOD issued a policy stating that DOD funds were not to be disbursed in
advance of contract performance and any such funds retained by nonDOD federal
agencies must be returned. GovWorks personnel were aware of this new requirement and
stated that they needed to reprogram computer systems to comply. As of April 2007,
GovWorks was working with the DOD Office of the Comptroller to resolve this issue via
a phased approach.

Stewardship: GovWorks continues to issue many contracting actions from the GSA
Federal Supply Schedules or existing DOD contracts. Not only does GovWorks have a
responsibility to ensure its contracting actions comply with federal laws and regulations
and with DOD policies, it has a fiduciary responsibility to its clients. We maintain that
DOI should advise DOD requesting agencies whenever they can fill purchase requests



                                          5
directly using GSA schedules or existing DOD contracts. When DOI performs these
simplified contracting actions, it costs DOD unnecessary fees that could be put to better
use.

Management Oversight: GovWorks managers developed and implemented a
comprehensive corrective action plan in response to our prior audit recommendations and
had made progress in implementing many of the plan’s actions. However, we still found
problems related to issues that the plan had been designed to correct.

For example, one of the items in the plan specified re-issuance of GovWorks’s legal
review policy and issuance of a reminder to employees of the importance of obtaining a
legal review on high-dollar contracting actions. We found instances, however, in which
contracting officers submitted requests for legal reviews but did not obtain them before
awarding the contracts. The contracting officers were reluctant to delay contract awards
until SOL could perform legal reviews because of that Office’s backlog. Such decisions
violate GovWorks’s own policy and put DOI at risk of awarding legally unsound
contracts.

Another example that calls into question the effectiveness of implemented plan elements
relates to training of GovWorks employees on DOD’s “Non-Economy Act Orders”
policy memorandum dated October 16, 2006. GovWorks indicated that its employees
were trained on this new policy, which prohibits funds from being used after they expire.
However, we interviewed a contracting officer in May 2007 who still believed the award
of a contract in December 2006 with funds that expired on September 30, 2006, was
appropriate based on the fact that GovWorks accepted the funds within their period of
availability. This not only violates DOD policy but is also an improper use of prior year
funds.

Based on these examples, we concluded that, if corrective actions were taken, they have
not been entirely effective. It is clear, however, that DOI still needs to strengthen and
improve oversight of GovWorks in the conduct of its business on behalf of DOD.

Improvements: GovWorks has made some improvements since our first audit.
Specifically, GovWorks is:

       ¾       accepting few MIPRs that contain vague descriptions;

       ¾       using multiple MIPRs less often to fund single contracting actions; and

       ¾       making progress in researching expired funds and returning them to DOD.

As detailed in our first audit report, GovWorks had $393 million in potentially expired
DOD funds on its books as of October 2005. As of April 2007, GovWorks had $8.3
million in unobligated FY2006 DOD funds on its books. Research was ongoing into
resolving the status of these funds.




                                         6
SOUTHWEST BRANCH
The 20 SWB contracting actions that we reviewed consisted of 5 product purchases and
15 service purchases. While SWB personnel have made progress in addressing the
deficiencies from our first audit, we found two Bona Fide Need Rule violations, as well
as instances of poor communication between SWB staff and NBC managers.

Bona Fide Need: We found that SWB procured products without evidence of sufficient
bona fide need. In two cases, SWB purchased commercial products near the end of the
fiscal year, and DOD took delivery of the products the following fiscal year.

Generally, appropriated funds should be used only for the needs extant in the fiscal year
in which they are authorized. The equipment consisted of commercial items, and we
found no evidence in either case that 1) a long lead-time was required to purchase these
items, 2) the items were needed to replenish inventory, or 3) an unforeseen delay
occurred during the purchase of these items. This use of FY2006 funds to procure
products for the needs of FY2007 appears to violate the Bona Fide Need Rule. We
include details in Appendix 3.

Communication: We found a lack of communication between NBC and SWB. For
example, when we assessed the progress NBC had made toward implementing the
corrective action plan it developed to address our prior recommendations, we found that
NBC managers had not effectively communicated certain actions in the plan to SWB
personnel.

Specifically, we found that SWB personnel were unaware of the status of 14 suspended
contracting officer warrants or of any plans to reinstate those warrants. In response to our
prior audit findings, NBC suspended the warrants for all 18 SWB contracting officers in
March 2006. As of May 2007, only four of the warrants had been reinstated. SWB
officials stated that they repeatedly asked NBC managers about these warrants but did not
receive a definite response. This lack of communication makes planning difficult and
results in an increased level of uncertainty. We believe that NBC managers should keep
SWB staff informed about the status of and proposed plans for these warrants.

In another example, NBC agreed to assess its organizational structure and implement
changes. We found that NBC has planned to add a branch chief position to the SWB
organizational structure. That position appeared on the organizational chart in July 2006,
but had not been filled as of February 2007. According to SWB personnel, the
announcement for this position had opened and closed many times, but the position
remained vacant. Further, they did not know the status of then current efforts to fill the
position. We believe that a permanent onsite management presence is important for the
continued improvement of operations at SWB and that management should keep
personnel informed of ongoing efforts to fill this position.

Although SWB has improved in many areas, the communication weaknesses we found
indicate that at least some of the procedures outlined in NBC’s corrective action plan


                                         7
       have not, in fact, been implemented. For a corrective action plan to be effective, it must
       be communicated to the people responsible for implementing it. The status of corrective
       actions should be communicated regularly to all levels of the organization.

       Improvements: Despite this state of communications between NBC and SWB, we
       found improvements in many processes and procedures and commend SWB for the
       improvements made. SWB has now:

              ¾       improved contract file documentation, including price reasonableness
                      determinations, independent U.S. Government cost estimates, and
                      technical evaluations;

              ¾       included a clause in contracts that addresses potential organizational
                      conflicts of interest; and

              ¾       declined to renew the contract option on an Internet-based electronic
                      storefront that had been operated without the required reviews and
                      approvals.

Based on this audit and the results of our first audit, we conclude that DOI continues to leave
DOD vulnerable to fraud, waste, and mismanagement. Further, DOI continues to improperly use
DOD funds and risks loss of acquisition center business and the public trust.

RECOMMENDATIONS
We recommend that the Secretary direct NBC to:

       1.     Develop, write, and implement procedures designed to improve the lines of
              communication from NBC headquarters to SWB.

       2.     Ensure GovWorks and the SWB:

              a.      research and resolve all violations of the Bona Fide Need Rule identified
                      in this report; and

              b.      establish bona fide need before accepting purchase requests.

       3.     Ensure GovWorks:

              a.      evaluates all expired funds in DOI possession and establishes a timeline
                      for returning them to the appropriate agency;

              b.      trains employees regarding GovWorks’s legal review policy and the
                      provisions contained in the DOD “Non-Economy Act Orders” policy
                      memorandum dated October 16, 2006;



                                                8
              c.      develops and establishes a timeline for discontinuing the practice of
                      advance billing and for returning all advanced funds to DOD;

              d.      completes legal reviews on all applicable contracting actions prior to
                      contract award; and

              e.      complies with the Purpose Statute.



DEPARTMENT COMMENTS AND OIG RESPONSE
In its January 2, 2008, response to our draft report (Appendix 5), the NBC concurred with all our
recommendations and directed the Acquisition Services Directorate (AQD), formally GovWorks,
to take the lead in implementing the recommendations. NBC stated, “we believe that your
recommendations can help us further improve our internal controls related to the acquisition
environment in conjunction with the related changes that AQD has already implemented.”
Based on this response, we consider all recommendations to be resolved but not implemented.




                                                9
                                                                                      Appendix 1


                        OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether DOD purchases made by DOI conformed to
applicable laws and regulations. Specifically, we reviewed individual contracts to determine
whether DOD clearly defined requirements and used proper funding and whether DOI, while
providing contracting services to DOD, followed the FAR and the Defense Federal Acquisition
Regulation Supplement. We conducted our audit from December 2006 to August 2007.

The scope of the audit covered FY2006 and FY2007 procurement actions. We reviewed 40
contract actions valued at $21.6 million; judgmentally selected acquisitions at both SWB and
GovWorks; and focused on new contracting actions that occurred from August 1, 2006, to
February 1, 2007.

We conducted our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures as we considered necessary under the circumstances. To accomplish
the audit objective, we reviewed 1) applicable laws, regulations, and policies; 2) documents,
including contract actions, contract files, financial reports; and 3) other data applicable to DOI
interagency contracting offices. Specifically, we assessed:

       ¾       Bona Fide Need Rule compliance,

       ¾       contractor performance monitoring,

       ¾       competition adequacy,

       ¾       price reasonableness determination adequacy,

       ¾       funds type appropriateness,

       ¾       market research requirement compliance, and

       ¾       legal review sufficiency.

We interviewed DOI officials; GovWorks, SWB, and NBC staff; and DOD personnel. We
coordinated our audit with the DODIG, as required by Section 811 of the NDAA. As part of our
audit, we also evaluated the system of internal controls to the extent that we considered
necessary to accomplish our audit objective.




                                                10
                                                                                 Appendix 2


                        GOVWORKS ACQUISITIONS REVIEWED
  REFERENCE NUMBER
                           FUNDING TYPE                       ISSUES NOTED
(CONTRACT/ORDER/TASK)
                                              Purchased records management support in
                                              November 2006 using funds that expired on
                                              September 30, 2006. The period of fund
                        FY2006 Defense O&M    availability was extended because of contract
    Contract 60547
                        Funds                 protest, and use of expired funds was
                                              considered acceptable. The file lacked a legal
                                              review and an adequate independent U.S.
                                              Government cost estimate (IGCE).
                                              Purchased removal and disposal of tile
                        No Year Defense       flooring in November 2006 using no-year
    Contract 66145      Commissary Agency
                                              funds. The file lacked an adequate price
                        Funds
                                              reasonableness determination.
                                              Purchased walk-in freezer and chiller storage
                        No Year Defense       in November 2006 using no-year funds. The
    Contract 66229      Commissary Agency
                                              file lacked an adequate price reasonableness
                        Funds
                                              determination.
                                              Purchased supplies for a child development
                                              center in November 2006 using funds that
                        FY2006 Navy O&M       expired on September 30, 2006. The bona
    Contract 66459
                        Funds                 fide need was not established, which resulted
                                              in use of expired funds. In addition, contract
                                              award did not comply with DOD policy.
                                              GovWorks accepted a MIPR in November
                                              2006 that conveyed funds that had already
                                              expired and used it to purchase IT services in
                        FY2006 Defense        December 2006. Therefore, no bona fide
    Contract 66592
                        Health Program
                                              need for the IT services could have been
                                              established. Further, the contract award did
                                              not comply with DOD policy.
                                              Purchased body armor in November 2006
                                              using funds that expired on September 30,
                        FY2006 Navy O&M       2006. The bona fide need was not
    Contract 66602
                        Funds                 established, which resulted in use of expired
                                              funds. In addition, the contract award did not
                                              comply with DOD policy.


                                             11
  REFERENCE NUMBER
                           FUNDING TYPE                         ISSUES NOTED
(CONTRACT/ORDER/TASK)
                                                 Purchased helmets in November 2006 using
                                                 funds from two MIPRs that expired on
                        FY2006 Navy O&M          September 30, 2006. The bona fide need was
    Contract 66624
                        Funds                    not established, which resulted in use of
                                                 expired funds. In addition, the contract award
                                                 did not comply with DOD policy.
                                                 Purchased engineering support services in
                                                 November 2006 using no-year funds. The
                        No Year Defense
    Contract 66672                               type of funds used appears inappropriate, and
                        Working Capital Funds
                                                 such misuse violates the Purpose Statute. The
                                                 file also lacked a legal review.
                                                 Purchased anti-terrorism protection gear in
                                                 November 2006 using funds that expired on
                        FY2006 Navy O&M          September 30, 2006. The bona fide need was
    Contract 66708
                        Funds                    not established, which resulted in use of
                                                 expired funds. In addition, the contract award
                                                 did not comply with DOD policy.
                                                 Purchased mobile showers in December 2006
                                                 using funds from two MIPRs that expired on
                                                 September 30, 2006. The bona fide need was
                        FY2006 Army O&M          not established, which resulted in use of
                        Funds; FY2006 Army       expired funds. In addition, the contract award
    Contract 66735
                        National Guard O&M       did not comply with DOD policy. The file
                        Funds                    lacked competition documentation, an
                                                 adequate price reasonableness determination,
                                                 an adequate technical review, and a legal
                                                 review.
                                                 Purchased body armor in November 2006
                                                 using funds that expired on September 30,
                                                 2006. The bona fide need was not
                        FY2006 Navy O&M
    Contract 66761                               established, which resulted in use of expired
                        Funds
                                                 funds. In addition, the contract award did not
                                                 comply with DOD policy. The file also
                                                 lacked a legal review.
                                                 Purchased body armor in November 2006
                                                 using funds that expired on September 30,
                                                 2006. The bona fide need was not
                        FY2006 Navy O&M
    Contract 66775                               established, which resulted in use of expired
                        Funds
                                                 funds. In addition, the contract award did not
                                                 comply with DOD policy. The file lacked a
                                                 legal review.



                                                12
  REFERENCE NUMBER
                           FUNDING TYPE                         ISSUES NOTED
(CONTRACT/ORDER/TASK)
                                                 Purchased construction services in December
                                                 2006 using funds that expired on
                        FY2006 Army O&M          September 30, 2006. The bona fide need was
    Contract 66810
                        Funds                    not established, which resulted in use of
                                                 expired funds. In addition, the contract award
                                                 did not comply with DOD policy.
                                                 Purchased IT hardware, software, and
                                                 consumables in January 2007 using funds that
                        FY2006 Marine Corps      expired on September 30, 2006. The bona
    Contract 67063                               fide need was not established, which resulted
                        O&M Funds
                                                 in use of expired funds. In addition, the
                                                 contract award did not comply with DOD
                                                 policy. The file also lacked a legal review.
                                                 Purchased a warranty continuation contract in
                        FY2005 Air Force         January 2007 using funds that will expire on
    Contract 67177      Other Procurement        September 30, 2007. The type of funds used
                        Funds                    appears to be inappropriate, and such misuse
                                                 violates the Purpose Statute. The file also
                                                 lacked an adequate IGCE.
  REFERENCE NUMBER
                           FUNDING TYPE                       NO ISSUES NOTED
(CONTRACT/ORDER/TASK)
                        FY2006 Air Force         Purchased support to improve visibility and
    Contract 66169      Other Procurement        repair processes in December 2006 using
                        Funds                    funds that will expire on September 30, 2008.
                        FY2006 Air Force         Purchased printers and cartridges in
    Contract 66566      Other Procurement        November 2006 using funds that will expire
                        Funds                    on September 30, 2008.
                        No Year Defense          Purchased IT support in November 2006
    Contract 66703
                        Working Capital Funds    using no-year funds.
                        FY2007 Army
                                                 Purchased flight termination receivers in
                        Research,
    Contract 66712                               November 2006 using funds that will expire
                        Development, Test and
                                                 on September 30, 2008.
                        Evaluation Funds
                        FY2007 Defense           Purchased IT services in December 2006
    Contract 66866                               using funds that will expire on September 30,
                        RDT&E Funds
                                                 2008.




                                                13
                                                                      Appendix 3


                   SWB ACQUISITIONS REVIEWED

  REFERENCE NUMBER
                                          ISSUES NOTED
(CONTRACT/ORDER/TASK)
                        Purchased computer hardware and maintenance support on
    NBCHF060099         September 30, 2006. The bona fide need for FY2006 was
                        not established.
                        Purchased computers and memory modules on September
    NBCHF060107         27, 2006. The bona fide need for FY2006 was not
                        established.
  REFERENCE NUMBER
                                        NO ISSUES NOTED
(CONTRACT/ORDER/TASK)
                        Purchased research and development of video identity
    NBCHC060057
                        verification support services.
    NBCHC060066         Purchased IT and support services.
                        Purchased research and development of video translation
    NBCHC060151
                        software under a Broad Agency Announcement (BAA).
                        Purchased research and development of facial recognition
    NBCHC060153
                        software under a BAA.
                        Purchased research and development of three-dimensional
    NBCHC060154
                        contract extraction models under a BAA.
                        Purchased research and development of a video data
    NBCHC060157
                        program under a BAA.

                        Purchased research and development of a video analysis
    NBCHC060160
                        and content extraction program under a BAA.

                        Purchased research and development of a pathogen
    NBCHC060162
                        detection program.
    NBCHC060168         Purchased database licenses.
                        Purchased research and development of a video data
    NBCHC060169
                        program under a BAA.
                        Purchased research and development of a video analysis
    NBCHC060170
                        and content extraction program under a BAA.

    NBCHC060175         Purchased research and development of a quiet submarine
                        maneuvering system.


                                 14
  REFERENCE NUMBER
                                         NO ISSUES NOTED
(CONTRACT/ORDER/TASK)
                        Purchased the development of machine translation
    NBCHD060008
                        laboratory and prototype parsing software.
                        Purchased technical, programmatic, financial, and
    NBCHD060010
                        administrative support.
    NBCHF060066         Purchased computers and hard drives.
    NBCHF060073         Purchased computer software.
    NBCHP060146         Purchased administrative services.
    NBCHP070006         Reimbursed travel expenses.




                                 15
                                                                                     Appendix 4



                                     RELATED REVIEWS
The Government Accountability Office (GAO) and DOI OIG have issued reports that are
applicable to our audit.

GAO

   ¾ July 2006 — “Contract Management: DOD Vulnerabilities to Contracting Fraud, Waste,
     and Abuse” (GAO-06-838R). This report identified DOD vulnerabilities to contracting
     fraud, waste, and abuse caused by weaknesses in five key areas. These are senior
     leadership, acquisition workforce, pricing, contracting approaches and techniques, and
     contract surveillance. GAO has placed contract management on its list of high-risk areas
     since 1992.

   ¾ April 2006 — “Increased Use of Alaskan Native Corporations’ Special 8(a) Provisions
     Calls for Tailored Oversight” (GAO-06-399). GAO reported that agencies used 8(a)
     Alaskan Native Corporations (ANC) firms as a quick, easy, and legal method of
     awarding contracts for any value, while helping meet small business goals. In one
     contract, GovWorks did not consider any alternatives to sole-source contracting with the
     ANC firm because the DOD purchaser requested that firm. GAO recommended DOI
     work with the Small Business Administration (SBA) to develop guidance on how to
     comply with 8(a) Program requirements, such as limiting subcontracting and notifying
     SBA of contract modifications. DOI, overall, concurred with GAO recommendations.

   ¾ July 2005 — “Interagency Contracting: Franchise Funds Provide Convenience but Value
     to DOD is Not Demonstrated” (GAO-05-456). GAO reported that GovWorks did not
     always ensure fair and reasonable prices when requesting that contractors perform
     additional work. This practice substantially increased contract values and, in many cases,
     GovWorks did not receive competing proposals. GAO recommended that 1) DOI
     develop procedures that would ensure GovWorks compliance with federal procurement
     regulations and policies and that 2) contracting officers work closely with DOD
     customers to define contract outcomes and effective oversight methods. DOI concurred
     with GAO recommendations and was currently taking corrective actions.

   ¾ April 2005 — “Interagency Contracting: Problems with DOD’s and Interior’s Orders to
     Support Military Operations” (GAO-05-201). GAO reported that a lack of management
     controls, specifically insufficient oversight and inadequate training, led to DOI failure to
     issue orders that were within the scope of the underlying contract, in violation of
     competition rules; comply with additional DOD competition requirements when issuing
     task orders for services on existing contracts; comply with ordering procedures meant to
     ensure best value for the U.S. Government; and adequately monitor contractor
     performance. GAO recommended that DOI ensure that 1) management reviews of
     contracting offices emphasize and assess whether contracting officials are trained


                                               16
      adequately and 2) performance measures for contracting officers provide incentives to
      exercise due diligence and comply with applicable contracting rules and regulations.
      DOI agreed with all recommendations and was taking corrective actions.

   ¾ March 2005 — “Contract Management: Opportunities to Improve Surveillance on
     Department of Defense Service Contracts” (GAO-05-274). GAO found insufficient
     surveillance on DOD contracts due to lack of 1) documentation, 2) personnel assigned
     surveillance responsibilities, or 3) required training. GAO recommended DOD provide
     training, ensure accountability, improve the contract review process, and revise policy on
     proper use of other agencies’ contracts. DOD, in general, concurred with all of the
     recommendations.

   ¾ January 2005 — “High Risk Series: An Update” (GAO-05-207). This report identifies
     management of interagency contracting as a new area included in GAO’s list of high risk
     areas within the U.S. Government. GAO, along with some agency inspectors general,
     found instances of improper use of interagency contracts; failure to follow prescribed
     procedures that ensure fair prices when using schedule contracts to acquire services; and,
     specifically at DOD, waiver of competition requirements on supply schedule orders due
     to preference in retaining the services of incumbent contractors. GAO and others believe
     these deficiencies occurred because of the increasing demands on the acquisition
     workforce; insufficient training; and, in some cases, inadequate guidance. GAO also
     points out that the fee-for-service arrangement creates an incentive to increase sales
     volume in order to support other programs of the agency that awards and administers
     interagency contracts. This incentive may lead to an inordinate focus on meeting
     customer demands, at the expense of complying with required ordering procedures.

   ¾ July 2002 — “Contract Management: Interagency Contract Program Fees Need More
     Oversight” (GAO-02-734). GAO determined that most of the contract service programs
     reviewed reported an excess of revenues over costs in at least 1 year between FY1999
     and FY2001. OMB guidance directs agencies with franchise fund programs to account
     for and recover fully allocated actual costs and to report on their financial results.
     Agencies are supposed to identify all direct and indirect costs and to charge fees to
     ordering agencies based on these costs.

DOI Office of Inspector General

   ¾ January 2007 — “FY2005 Department of the Interior Purchases Made on Behalf of the
     Department of Defense” (X-IN-MOA-0018-2005). OIG determined that DOI did not
     always follow appropriation and procurement laws, regulations, and rules. The audit
     found improper use of funds; an inappropriate lease agreement; problems with an
     Internet-based electronic storefront; numerous contract administration issues; a lack of
     stewardship over federal resources; and weak management oversight. DOI agreed with
     most of the OIG recommendations and agreed to implement changes to improve its
     interagency contracting operations.

   ¾ March 2006 — “Fee-for-Service Organizations, Department of the Interior” (C-EV-
     MOA-0016-2005). OIG determined that the overall benefits of DOI’s fee-for-service


                                              17
   operations may not outweigh the risks to the Department. Problems identified include 1)
   DOI and other agencies breaking procurement laws and regulations and 2) fee-for-service
   providers, in their desire to attract customers in a competitive environment, sometimes
   operating without effective controls.

¾ November 2005 — “U.S. Department of the Interior Annual Report on Performance and
  Accountability” (X-IN-MOA-0011-2005). OIG identified Procurement, Contracts, and
  Grants as one of its Top Management Challenges. Procurement has historically been an
  area subject to fraud and waste government-wide, and managing procurement activities is
  a continuing challenge that requires constant attention.

¾ July 2004 — “Review of 12 Procurements Placed Under General Services
  Administration Federal Supply Schedules 70 and 871 by the National Business Center”
  (W-EV-OSS-0075-2004). OIG found procurements made under the GSA schedule at
  SWB in Ft. Huachuca, AZ, were out of scope. Factors that allowed these transactions to
  occur included 1) a lack of effective policies, procedures, and process controls and of
  monitoring and oversight by NBC management and 2) the conflict inherent in a fee-for-
  service operation. OIG recommended termination of inappropriate contracts; revision of
  criteria for the alternative management control reviews of the acquisition function, to
  include operations at NBC; and development of policies and procedures to prevent
  similar actions in the future. DOI management was collaborating with other agencies to
  correct these deficiencies.




                                          18
                                      Appendix 5



DEPA
   ARTMENT RESPONSE TO DRAFT
                           T REPORT




             19
20
21
22
23
24
25
                                                                       Appendix 6



                   STATUS OF AUDIT RECOMMENDATIONS

RECOMMENDATIONS          STATUS                     ACTION REQUIRED

        1
                                         No further response is needed to the OIG.
                                         We will refer the recommendations to the
                         Resolved,
      2A,2B                              Assistant Secretary for Policy,
                     Not Implemented.
                                         Management and Budget for tracking of
                                         implementation.
  3A,3B,3C,3D,3E




                                    26
                                                                                 Addendum

                      25 MIPRS REVIEWED FROM FIRST AUDIT —
                            GOVWORKS EXPIRED FUNDS
As a result of our first audit, we identified $393 million in potentially expired DOD funds that
were on DOI books as of October 2005 and recommended that GovWorks deobligate these
funds. In response to a DODIG request, we returned to GovWorks in November 2006 and
reviewed 25 judgmentally selected MIPRs that funded 140 contracting actions and represented
approximately $95.7 million of the potentially expired funds.

We reviewed each MIPR to determine whether the description contained enough specificity to
establish a valid obligation. For MIPRs without adequate specificity, any contract action
awarded after the funds were no longer available resulted in improper use of expired funds. For
each MIPR that contained enough specificity, any contract action that was not awarded within a
reasonable period (90 days) resulted in improper use of expired funds. As a result, we noted 85
instances of improper use of funds (61 percent of the transactions reviewed), totaling $33.8
million.

Reference Number
                        Funding Type                    Comments/Issues Noted
 (MIPR Number)
                                          The MIPR contained enough specificity to establish
                                          the bona fide need prior to the end of the period of
                        FY2004            availability, permitting GovWorks to award
                        Defense           contracts from this MIPR past September 30, 2004.
DUAM40220                                 However, GovWorks did not award the contracts
                        Humanitarian
                        Assistance        funded by this MIPR within a reasonable amount of
                                          time. Rather, GovWorks improperly awarded nine
                                          contracts between 250 and 317 days after the funds
                                          expired.
                                          The MIPR did not contain enough specificity to
                                          establish the bona fide need prior to the end of the
                        FY2005 Army       period of availability; therefore, these funds expired
MIPR5CINTMM015
                        O&M Funds         on September 30, 2005. GovWorks improperly
                                          awarded one contract 180 days after the funds
                                          expired.
                                          The MIPR contained enough specificity to establish
                                          the bona fide need prior to the end of the period of
                        FY2005 Air        availability, permitting GovWorks to award
F1AF2B5227G001          Force O&M         contracts from this MIPR past September 30, 2005.
                        Funds             However, GovWorks did not award the contracts
                                          funded by this MIPR within a reasonable amount of
                                          time. Rather, GovWorks improperly awarded the
                                          contract 93 days after the funds expired.



                                                27
Reference Number
                   Funding Type                Comments/Issues Noted
 (MIPR Number)
                                  The MIPR contained enough specificity to establish
                                  the bona fide need prior to the end of the period of
                                  availability, permitting GovWorks to award
                   FY2003 Air     contracts from this MIPR past September 30, 2003.
nmipr033601394     Force O&M      However, GovWorks did not award the contracts
                   Funds          funded by this MIPR within a reasonable amount of
                                  time. Rather, GovWorks improperly awarded six
                                  contracts between 180 and 973 days after the funds
                                  expired.
                                  The MIPR did not contain enough specificity to
                                  establish the bona fide need prior to the end of the
                   FY2005 Army    period of availability; therefore, these funds expired
MIPR5KINT05319
                   O&M Funds      on September 30, 2005. GovWorks improperly
                                  awarded five contracts between 68 and 341 days
                                  after the funds expired.
                                  The MIPR contained enough specificity to establish
                                  the bona fide need prior to the end of the period of
                                  availability, permitting GovWorks to award
                   FY2004 Air     contracts from this MIPR past September 30, 2004.
DD44809N401200     Force O&M      However, GovWorks did not award the contracts
                   Funds          funded by this MIPR within a reasonable amount of
                                  time. Rather, GovWorks improperly awarded 6
                                  contracts between 118 and 533 days after the funds
                                  expired.
                                  The MIPR did not contain enough specificity to
                                  establish the bona fide need prior to the end of the
                   FY2005 Navy    period of availability; therefore, these funds expired
N4703905MPB2408
                   O&M Funds      on September 30, 2005. GovWorks improperly
                                  awarded one contract 101 days after the funds
                                  expired.
                                  The MIPR did not contain enough specificity to
                                  establish the bona fide need prior to the end of the
                   FY2005 Army    period of availability; therefore, these funds expired
MIPR5EINTMM030
                   O&M Funds      on September 30, 2005. GovWorks improperly
                                  awarded one contract 39 days after the funds
                                  expired.
                                  The MIPR did not contain enough specificity to
                                  establish the bona fide need prior to the end of the
                   FY2005 Army    period of availability; therefore, these funds expired
MIPR5LDNT05359
                   O&M Funds      on September 30, 2005. GovWorks improperly
                                  awarded 27 contracts between 113 and 303 days
                                  after the funds expired.


                                       28
Reference Number
                   Funding Type                  Comments/Issues Noted
 (MIPR Number)
                                    The MIPR contained enough specificity to establish
                                    the bona fide need prior to the end of the period of
                                    availability, permitting GovWorks to award
                   FY2005 Air       contracts from this MIPR past September 30, 2005.
F2CFLG5228G001     Force O&M        However, GovWorks did not award the contracts
                   Funds            funded by this MIPR within a reasonable amount of
                                    time. Rather, GovWorks improperly awarded 12
                                    contracts between 102 and 317 days after the funds
                                    expired.
                                    The MIPR did not contain enough specificity to
                   FY2005           establish the bona fide need prior to the end of the
DRAM54728          Defense Health   period of availability; therefore, these funds expired
                   Funds            on September 30, 2005. GovWorks improperly
                                    awarded one contract 73 days after the funds
                                    expired.
                                    The MIPR did not contain enough specificity to
                   FY2005           establish the bona fide need prior to the end of the
LT5ZKA50011MP      Defense O&M      period of availability; therefore, these funds expired
                   Funds            on September 30, 2005. GovWorks improperly
                                    awarded four contracts between 6 and 270 days
                                    after the funds expired.
                                    The MIPR contained enough specificity to establish
                                    the bona fide need prior to the end of the period of
                                    availability, permitting GovWorks to award
                   FY2005 Navy      contracts from this MIPR past September 30, 2005.
N0005205MP005GV                     However, GovWorks did not award the contracts
                   O&M Funds
                                    funded by this MIPR within a reasonable amount of
                                    time. Rather, GovWorks improperly awarded 11
                                    contracts between 93 and 260 days after the funds
                                    expired.




                                         29
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
